                           "
                           Letusha vefai
                                       ththatr
                                             ight
                             makesmi ght
                                       ,andinthat
                              f
                              a i
                                th,le
                                    tus,totheend,
                               daretodoourdutya s
                                   weunderst
                                           andit.
                                                "

Pe
 nsionBenef
          itGuara
                ntyCorpor
                        ati
                          on
Of
 fic
   eo fI
       nspect
            orGenera
                   l
Se
 miannualRepor
             ttoCongre
                     ss
Oct
  ober1,2005-Ma r
                ch31,2006
Mission
The Oﬃce of Inspector General is an independent and obective voice
that helps Congress, the Board of Directors and PBGC protect the
pension beneﬁts of American workers by promoting positive change,
accountability and Integrity


Vision
We will be recognized by our stakholders as the primary source of
objective & independent information for their key decisions


Values
Respect
We will treat others as we would like them to treat us

Integrity
We will be a role model of ethical behavior

Excellence
We will constantly innovate & improve the quality and value of our work
                              Pension Beneﬁt Guaranty Corporation
                                                              Ofﬁce of Inspector General
                                                1200 K Street, NW, Washington, DC 20005-4026


                                                                                     October 31, 2005


The Honorable Elaine Chao
Chairman, PBGC Board of Directors

On behalf of the Oﬃce of Inspector General for the Pension Beneﬁt Guaranty Corporation, I am
pleased to submit this Semiannual Report to the U.S. Congress, summarizing OIG activities for the
six-month period ending September 30, 2005. It details our eﬀorts to improve the economy and
eﬃciency of PBGC operations, our eﬀorts to prevent fraud, waste and misconduct, and fulﬁlls our
reporting requirements under the Inspector General Act.

This was a period of major change at PBGC. The Executive Director hired a new Chief Financial
Oﬃcer, Chief Administrative Oﬃcer and General Counsel, and is recruiting for a senior vice president
of beneﬁts administration. Along with these changes in the executive ranks, the Corporation is
reexamining longstanding operating policies. Major initiatives in risk management, internal controls,
contracting, ﬁnancial reporting and ethics fostered a new spirit of transparency and accountability.

A priority of my oﬃce during the period was helping new executives transition to PBGC. The OIG
prepared brieﬁng books, and I met with each of the executives in their ﬁrst days on board. Both the
audit and investigative units briefed them on their work and discussed ways that we could work
together to improve controls. We also worked closely with the General Counsel and her staﬀ to
identify ways to strengthen the ethical environment.

This was also a period of change in OIG. We made major strides at enhancing our capability by
staﬀ with expertise in the contract and information systems areas. I am proud to say that we
have fully assumed contract audit responsibilities from management, and we made numerous
recommendations to improve contracting controls. We are also very proud of our investigative
unit’s success in obtaining indictments and convictions aimed at protecting the pension beneﬁts of
participants and safeguarding PBGC assets.

PBGC continues to report the largest losses in its history. While PBGC has suﬃcient resources to pay
participants guaranteed beneﬁts for a number of years, I remain concerned that PBGC lacks the funds
it needs to pay future beneﬁts for which it is obligated. Comprehensive reform is needed to protect
the pensions of workers and retirees, and the viability of the pension insurance system.

We were impressed with PBGC’s response to the recent hurricane victims. After hurricane Katrina,
PBGC quickly identiﬁed 3,500 participants in the region who had no mail service, and then narrowed
it down to about 1,400 who receive monthly paper checks. Demonstrating their commitment to
ensuring these hard-hit people received their payments, PBGC pledged next-day direct deposit
transfers for beneﬁciaries in Louisiana, Mississippi and Alabama who did not receive their
September checks. PBGC was also willing to accommodate special requests for those
who preferred to receive a check, rather than direct deposit. The OIG coordinated with
the United States Postal Service OIG investigative team that was on-site in Louisiana,
resulting in PBGC getting answers to speciﬁc questions. From these eﬀorts, PBGC was
able to respond immediately to participants and pension plan sponsors aﬀected by
hurricane Rita.

I’m fortunate to have the unwavering support of you and the Board. I also appreciate
PBGC management’s cooperation and responsiveness to our work. We are proud to be
part of an organization that protects the pensions of over 44 million Americans, and will
constantly strive to keep its programs eﬃcient, eﬀective and free from fraud waste and
abuse.




Robert L. Emmons
Inspector General




       ii       PENSION BENEFIT GUARANTY CORPORATION
Table of Contents
Letter to the Chairman

Executive Summary . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .1

Introduction . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .3
The Pension Beneﬁt Guaranty Corporation
The Oﬃce of Inspector General

Audits . . .�                                                                                                                       5
Overview
Audit Activity
    Governance
    Financial Management
    Information Technology
    Procurement and Contracting
    Program Performance
Other Audit Activity
Access to Information
Management Decisions

Investigations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17
Overview
Activity This Period
    Signiﬁcant Investigations
    Fraud and Awareness Alert
    Follow-up on Agency Administrative Action
    Summary of Investigative Activities

Other Oﬃce of Inspector General Activities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20
Review of Proposed Statutory and Regulatory Changes
Internal PBGC Activities
External Activities
Internal OIG Activities

Appendix . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24
Cross-Reference to Reporting Requirements of the Inspector General Act
Reports Issued with Questioned Costs and Funds Put to Better Use
Signiﬁcant Problems, Deﬁciencies and Recommendations

Glossary�                                                                                                                         30




                                              SEMIANNUAL REPORT OF THE INSPECTOR GENERAL—SEPTEMBER 2005                                   iii
Executive Summary
This Semiannual Report to Congress summarizes the activities and accomplishments
of the Pension Beneﬁt Guaranty Corporation (PBGC) Oﬃce of Inspector General
(OIG) for the period April1, 2005, through September 30, 2005. When accomplishing
audit and investigative work, we ensure that it accords with our mission to be an
“independent and objective voice for Congress, the Board of Directors, and PBGC.” We
want to focus our work on the challenges facing PBGC and to be the primary source
of timely and objective information for the organization. We will accomplish our work
demonstrating our values of respect, excellence, and integrity.

During this period, we conducted work in all areas designated as Management
Challenges, focusing much of our audit eﬀort on the ﬁnancial statement audit and its
related reports, and contract audits.

     • Governance— the Board of Directors and PBGC Executives show strong
       commitment to good governance (see page 5).
     • Financial management—rigorous third-quarter close implemented, new
       ﬁnancial statement audit contract awarded, ﬁnancial statement audit
       underway (see page 6).
     • Information technology — we issued a report on management’s request to
       review the development of PBGC’s new Premium and Practitioner system
       (see page 7).
     • Procurement and contracting—we audited PBGC’s award and monitoring of
       contracts awarded to a Canadian ﬁrm to provide actuarial software
       (see page 9).
     • Program performance—we completed ﬁeld work and briefed PBGC on its
       request to review required adjustments to participants’ beneﬁts, and issued
       evaluations of the purchase card program and accounts payable (see page 13).

In the investigative area, we received a large number of allegations, many of which we
were able to close during the inquiry stage. We opened 9 new cases, and closed 31
cases and 28 inquiries. Signiﬁcant investigative work this period, included:

     • a PBGC manager engaged in ethical misconduct by soliciting and receiving a
       loan from a subordinate (see page 17);
     • determined that PBGC employees had not fraudulently used rewards program
       resulting from government credit card purchases, but found internal control
       weaknesses (see page 17);
     • worked with PBGC to prevent and detect fraud in its “missing participants”
       program (see page 18);
     • the Assistant IG for Investigations testiﬁed in a pension fraud case, resulting in
       conviction (see page 18): and
     • PBGC employees were disciplined for misusing PBGC computers to view and
       share oﬀensive material (see page 19).


  OIG staﬀ participated in many internal and external activities, including active
  participation in several PBGC mentoring programs as senior mentors and
  mentorees, and activities impacting the IG community.


                            SEMIANNUAL REPORT OF THE INSPECTOR GENERAL—SEPTEMBER 2005       1
2   PENSION BENEFIT GUARANTY CORPORATION
Introduction
The Pension Benefit Guaranty Corporation
The Pension Beneﬁt Guaranty Corporation (PBGC, or the Corporation) was established
under Title IV of the Employee Retirement Income Security Act of 1974 (ERISA),                   PBGC protects
as amended (5 U.S.C. §§ 1301-1461), as a self-ﬁnancing, wholly owned federal
government Corporation to administer the pension insurance program. ERISA requires              pensions of about
that PBGC                                                                                       44 million people.
(1) encourage the continuation and maintenance of voluntary private pension
plans, (2) provide for the timely and uninterrupted payment of pension beneﬁts
to participants and beneﬁciaries, and (3) maintain premiums at the lowest level
consistent with carrying out PBGC’s obligations.

For about 44 million Americans, PBGC provides assurance that their retirement
beneﬁts will be paid, up to a statutory limit. PBGC protects the pensions of participants
in certain deﬁned beneﬁt pension plans (i.e., plans that promise to pay deﬁnitely
determinable retirement beneﬁts). Such deﬁned beneﬁt pension plans may be
sponsored individually or jointly by employers and unions. PBGC is now responsible
for the pensions of about 1.3 million people, including about 700,000 who will receive
beneﬁts when they retire in the future. PBGC pays about $300 million a month to
about 600,000 current retirees.

The Office of Inspector General
                                                                                                    We have
The mission of the Oﬃce of Inspector General (OIG) is to be an independent and
                                                                                                  enhanced our
objective voice that helps the Congress, the Board of Directors, and PBGC protect the
pension beneﬁts of American workers by promoting positive change, accountability,                 capability by
and integrity. To accomplish this goal, the OIG conducts agency audits, inspections,
                                                                                                hiring staﬀ with
and investigations to provide our stakeholders with information they need to make
decisions. OIG is authorized 20 positions, of which three are investigators. We are               contract and
currently recruiting to ﬁll three vacant positions.
                                                                                                  information
To provide value, OIG focuses work on the challenges that PBGC is facing, whether
                                                                                                    systems
we are issuing audit, evaluation, and investigative reports or consulting with PBGC
and participating on various teams and in working groups. We are committed to our                  experience.
values of respect, excellence, and integrity in all we do.

Our approach to audit planning concentrates our eﬀorts on identifying issues that
are important to PBGC. We maintain an inventory of suggested audits that we receive
from a variety of sources, including the Board of Directors and PBGC management.
Each year, we assess risk in terms of materiality, impact on operations and potential for
adverse publicity for the Corporation. Based on this risk assessment, we identify the
most important challenges on which to focus our work. The ﬁnal step is to plan and
conduct audits that address those challenges. We continue tolfocus on these major
questions:




                             SEMIANNUAL REPORT OF THE INSPECTOR GENERAL—SEPTEMBER 2005      3
          • Does PBGC have a governance model that ensure reliable and complete
            ﬁnancial reporting, eﬀective customer service, and ethical business dealings?
          • Does PBGC have strong ﬁnancial controls that are needed to protect assets and
            inimize costs?
          • Does PBGC eﬀectively balance operational eﬃciency with optimal customer
            service?
          • Do PBGC contractors provide quality products and services at a reasonable
            price?
          • Do PBGC’s information systems maximize customer service while protecting
            the privacy and integrity of information?

    We have scheduled audits in 2006 to address each of these challenges.

    As required by the Chief Financial Oﬃcers Act, we continue to audit PBGC’s ﬁnancial
    statements. The OIG contracts with an independent public accountant (IPA) to perform
    this work.

    In our attempt to maximize limited resources, our approach to investigations is to
    apply strict criteria in evaluating the quality of the allegations received. For example,
    we evaluate allegations against the potential criminal and civil violations, the statute
    of limitations, the potential for negative publicity for PBGC, and the total assets
    involved. This allows us to concentrate on investigative issues that are most important
    to PBGC.

    The OIG follows the standards contained in the Quality Standards for Federal Oﬃces of
    Inspector General, published by the President’s Council on Integrity and Eﬃciency (PCIE)
    and the Executive Council on Integrity and Eﬃciency (ECIE). These standards require
    audits to be conducted in accordance with Government Auditing Standards, issued by
    the Government Accountability Oﬃce. Our investigations comply with Quality Standards
    for Investigations, which have been accepted by the PCIE and ECIE.




4   PENSION BENEFIT GUARANTY CORPORATION
Audits
Overview

Our audit approach is to focus our work on areas that present signiﬁcant management
challenges to PBGC. Using our past work and input from the Board of Directors
and management, we conducted work this semi-annual period primarily ﬁnancial
management, information technology, procurement and contracts, and overall
program performance. We consulted with PBGC leadership on various governance
issues. The OIG staﬀ participated on corporate-wide teams addressing various
issues of joint concern. Our goal is to have a positive impact on the decision-making
process of the Board of Directors and PBGC management. The following paragraphs
summarize the work of our auditors for each major management challenge.



1.     Governance
Governance is a major challenge of the Corporation, particularly as it struggles with
a growing deﬁcit and record numbers of terminated pension plans and participants.
                                                                                             PBGC established
Oversight of the ﬁnancial operations and ﬁnancial reporting by the Board of Directors,
PBGC management and the OIG is critical to eﬀective corporate governance. Several            an Internal
changes occurred that demonstrate the Corporation’s commitment to eﬀective
                                                                                             Control
ﬁnancial and program oversight. During the period, PBGC:
                                                                                             Committee to
     • Hired a new Chief Financial Oﬃcer (CFO) with signiﬁcant private sector
       ﬁnancial experience, who has initiated numerous initiatives to improve                improve senior
       ﬁnancial reporting and accountability;                                                managment’s
     • Hired a new General Counsel with signiﬁcant government enforcement
       experience, who is focused on maintaining high ethical standards and                  oversight of
       protecting the Corporations interests in contracts;
     • Hired a new Chief Administrative Oﬃcer with signiﬁcant government                     the control
       experience in information technology and resources management, who will               environment
       oversee the Corporation’s initiatives to improve economy and eﬃciency;
     • Established an internal control committee chaired by the CFO to improve
       senior management’s oversight of the control environment; and
     • Continued eﬀorts to comprehensively identify, document, test and report on
       signiﬁcant controls. PBGC is one of a handful of Federal agencies that receives
       an audit opinion on internal controls each year.

The Board of Directors, which includes the Secretaries of Labor, Treasury and
Commerce, met in July 2005 to discuss critical issues and oversee corporate
management and initiatives. The meeting included executive sessions with the
Executive Director and Inspector General.

OIG will continue to work with the Board and management for a governance model
that ensures reliable and complete ﬁnancial reporting, eﬀective customer service, and
ethical business dealings.



                            SEMIANNUAL REPORT OF THE INSPECTOR GENERAL—SEPTEMBER 2005    5
                        2.      Financial Management

                        PBGC is a major government enterprise that manages over $55 billion in assets.
                        During FY 2005, the Corporation paid more than $3 billion in beneﬁt payments to
                        retirees in terminated pension plans.

                        In FY 2005, PBGC again sustained severe ﬁnancial losses from plan terminations.
                        Previously, in FY 2004, PBGC reported a deﬁcit of more than $23 billion, the largest
                        in its 30-year history. As a result, the single-employer insurance program’s ﬁnancial
                        position continued to erode as its deﬁcit worsened. The multiemployer program
                        also reported a signiﬁcant loss for the year and a larger year-end deﬁcit. PBGC has
                        suﬃcient assets to pay participants guaranteed beneﬁts for a number of years, but
                        neither of its insurance program has suﬃcient assets to satisfy the beneﬁt obligations
                        already incurred, much less future obligations likely to be assumed in the future.

                        For these reasons, strong ﬁnancial management controls are needed to protect assets,
                        mitigate risk and minimize cost. To help management address this challenge, OIG
                        continues to focus a large portion of its work on ﬁnancial management issues.


                        Financial Reporting

Closing ﬁnancial        In our report on Lessons Learned from the FY 2004 Financial Statement Audit, we
   records more         reported several challenges that were identiﬁed by management and OIG to meeting
                        the November 15 ﬁnancial reporting deadline. Both management and the OIG are
often will reduce       applying these lessons to make accelerated ﬁnancial reporting a routine business
                        practice rather than an extraordinary task each year. The biggest challenge is closing
     pressure at
                        the ﬁnancial records more frequently during the year, including conducting the
       year-end         processes that support the ﬁnancial statements. This will reduce the pressure on
                        management and the auditors at year-end.

                        The new CFO implemented a vigorous review of the third quarter closing process
                        and invited the OIG and its contracted auditors to attend. This all-day session and a
                        follow-up meeting covered the ﬁrst 9 months of FY 2005. Through a detailed review
                        of documentation and processes, the CFO and auditors gained an understanding of
                        the “pressure points” of PBGC’s ﬁnancial reporting, the internal controls, and the inter-
                        dependence of operations. This early review enabled the CFO and ﬁnancial operations
                        department to identify areas of concern and focus on corrective actions. We anticipate
                        this will avoid potential problems with the year-end close.




                    6   PENSION BENEFIT GUARANTY CORPORATION
New Financial Statement Audit Contract Awarded

FY 2004 was the ﬁnal year of a multi-year ﬁnancial statement audit contract. In early
2005, we competitively solicited bids for a ﬁxed price multi-year audit contract. In
March, we awarded a ﬁxed price contract to Clifton Gunderson, LLP. This ﬁrm’s
largest industry specialty is government services. They have a wealth of experience
in all aspects of governmental auditing and accounting, and have conducted major
engagements for four cabinet level agencies.

To kick oﬀ this year’s audit, Clifton Gunderson held an entrance conference with PBGC
in May. Under OIG’s general guidance, the ﬁrm has worked closely with the CFO to
coordinate the ﬁnancial statement work. The CFO’s third quarter review meeting
provided Clifton Gunderson with an early opportunity to review ﬁnancial results and
processes through June 30, 2005 and identify issues early.


FY 2005 Financial Statement Audit


The OIG’s ﬁnancial statement auditors, Clifton Gunderson, are in the midst of the audit.
PBGC continues to progress in addressing the ﬁve reportable conditions identiﬁed
in the FY 2004 report on internal controls. Clifton Gunderson is in the process of
examining corrective actions for the reportable conditions, but it is too early to
determine whether the reportable conditions will be fully corrected in FY 2005.

On November 15, 2005, Clifton Gunderson, under OIG’s general guidance, will issue
three reports related to the audit of PBGC’s ﬁnancial statements:

     (1) an opinion on the ﬁnancial statements,
     (2) an opinion on management’s assertion on internal controls over ﬁnancial
         statement reporting; and
     (3) results of tests on compliance with applicable laws and regulations.

Additionally, OIG will issue two separate management letter reports – one with
ﬁndings and recommendations concerning the PBGC’s program and ﬁnancial
operations, and the second for the information technology environment, including
general computer controls and application controls related to ﬁnancially signiﬁcant
systems. All of these reports will be issued in the next period.



3.      Information Technology

PBGC has major initiatives to enhance customer service by providing access to
information through Web-based applications. Protecting the privacy and integrity of
customer information is a major challenge for PBGC. The OIG continues to perform
work to assist the Corporation in meeting this challenge.




                            SEMIANNUAL REPORT OF THE INSPECTOR GENERAL—SEPTEMBER 2005      7
                        Preimium and Practitioner System Pre-Implementation Review
                        (2005-16/PA0012)

                        PBGC is developing a new system, Premium and Practitioner System (PPS), to address
                        signiﬁcant control weaknesses in the premium accounting process and improve the
                        quality and integrity of reported premium revenues. In March 2005, the Executive
                        Director expressed concerns with progress in developing PPS and asked the OIG to
                        evaluate the status of the application development project:

                             • Evaluate compliance with PBGC’s System Life Cycle Methodology (SLCM)
                             • Determine the ﬂexibility of the application to adapt for future statutory and
                               regulatory changes, such as those proposed to Congress for pension reform
                             • Provide suggestions as to the next steps PBGC should pursue based on the
                               results of this evaluation


      A common          Although PBGC cancelled the contract for developing the PPS during the our review,
                        we continued the work because premium accounting has been a long-standing issue
   framework of         for PBGC. Based on our work, we stated that continuing the redesign eﬀort was high-
                        risk because a common set of ﬁnancial requirements for all ﬁnancial systems had not
ﬁnancial controls
                        been deﬁned. Problems with the design of PPS are indicative of a broader problem
    is needed for       that we have reported repeatedly in our annual ﬁnancial audit and in our 2003 report
                        on the premium accounting system – the need to integrate ﬁnancial systems. Both
      all systems
                        the OIG and PBGC concluded that a common framework of ﬁnancial controls needs to
 that impact the        be developed for all systems that impact the general ledger, not just PPS. For this and
                        other reasons, PBGC has delayed the implementation of PPS and has now included
  general ledger.
                        it as part of the consolidated ﬁnancial system solution to establish a single general
                        ledger. The OIG supports this decision.

                        To address the issues we identiﬁed during the review, we provided PBGC with a
                        number of observations and suggestions where we noted deviations from established
                        requirements, inconsistencies in documentation, and improvements needed in both
                        project management and contractor oversight.

                        The OIG will continue to assess management’s development progress as they work to
                        enhance the ﬁnancial systems operations at PBGC, including the implementation of
                        the new Premium and Practitioner System.


                        Continuity of Operations


                        PBGC experienced a major systems failure in September 2005. As a result of the failure,
                        applications and ﬁles were not available and users were unable to send or receive
                        emails for an extended period of time. Management has hired an internal audit ﬁrm
                        to conduct an analysis of the computer system outage and develop a risk mitigation
                        strategy to prevent future system outages.




                    8   PENSION BENEFIT GUARANTY CORPORATION
During ﬁscal year 2005, PBGC conducted two major tests of its Continuity of
Operations Plan (COOP) before the systems failure to prepare for unexpected
interruptions to its normal business activities. Prior to these tests, signiﬁcant advanced
preparation occurred. Then, employees and management assembled at a backup
operations site and connected to the backup computer systems located in another
part of the country. Althought these tests veriﬁed the Corporation’s access to
applications, they did not verify the physical recovery of data. Nor was it a true test
of a failover to the alternate site because of the advanced preparation. The systems
failure that occurred in September raises concerns about the ability of the Corporation
to carry out mission activities and continue operations when primary systems fail.

OIG auditors will consider management’s analysis of the systems failure and
independently evaluate the impact of system failures on the integrity of ﬁnancial
data during the ﬁnancial statement audit. We will also monitor PBGC’s continuity
of operations testing in the future and report on the ability of the Corporation to
continue operations during unexpected interruptions to its normal business activities.



4. Procurement and Contracting

PBGC reported to the Board of Directors in July 2005 that it spends about two-thirds
of its annual budget through contracts. This volume of expenditures makes contract
management a major management challenge. We note PBGC has taken action this
period to strengthen contract management, including planning and awarding more
ﬁxed price contracts. In August 2005, PBGC issued a policy that the Oﬃce of the
General Counsel will review proposed solicitations and contracts exceeding $200,000.

We devoted a signiﬁcant portion of our audit resources to evaluating procurement
and contracting activities. Our audits have focused on two areas:

      • Identifying improvements to PBGC’s procurement process, and                          ��������������������
                                                                                              �����������������
                                                                                                ������������
      • Verifying that contractor billings were allowable, reasonable, supported and
        consistent with the terms of contracts.


Audit of PBGC’s Procurement Process                                                                ��������������������������������




We contracted with an Independent Public Accountant (IPA) to perform an audit of
PBGC’s procurement process in two phases:

      • To understand PBGC’s procurement process and identify those areas that had
        inherent and control risks; and
      • To determine whether PBGC is complying with its policies and procedures and
        related laws and regulations, in particular the Federal Acquisition Regulations.




                             SEMIANNUAL REPORT OF THE INSPECTOR GENERAL—SEPTEMBER 2005         9
                           We briefed PBGC management on the results of phase one in December 2004
                           (reported this in our last Semiannual Report). We completed the audit work on phase
                           two and provided PBGC management a draft report for comment. A summary of the
                           report’s ﬁndings, recommendations and management’s response will be included in
                           our next semiannual report.


                           Contract Performance Audits

                           We conducted two audits (described below) related to PBGC’s sole source contracts
                           with a Canadian ﬁrm that provides actuarial consulting services relating to pension
                           beneﬁts. PBGC contracted with the Canadian ﬁrm to provide parameter-driven beneﬁt
     We audited            calculation software that can value pension plans and calculate individual participant
                           beneﬁts in accordance with ERISA and PBGC regulations. This software, called Ariel,
           PBGC’s
                           will replace PBGC’s current actuarial valuation system.
     contracting
   activities for a        PBGC awarded two contracts for Ariel:
   major systems
                                 • The ﬁrst to develop a plan for identifying system modiﬁcations needed
        initiative
                                   for PBGC to use the Canadian ﬁrm’s existing software, produce the speciﬁc
procured through                   modiﬁcations, and a plan for constructing, testing and reviewing the modiﬁed
                                   software.
    a sole source
                                 • The second to implement the system modiﬁcations, make the modiﬁed system
         contract                  available to PBGC, and assist in initial production implementation.


                           Both contracts were incrementally funded for each phase of the work and have been
                           modiﬁed a number of times to either extend the period of performance, expand
                           the scope, and increase funding. Through October 2004, the total amount of both
                           contracts increased from $2.7 million to nearly $15 million.



                           Audit of Procurement Activities Related to the Award of Ariel Contracts
                           2005-18/CA-0008-1)


                           We contracted with an IPA to assess whether PBGC complied with applicable federal
                           laws and regulations, and internal policies and directives in its procurement activities
                           related to the award of two contracts for Ariel.

                           We found that PBGC could not provide advanced planning documentation, such
                           as the Individual Procurement Plan and the cost-beneﬁt documentation dated
                           before commencement of the initial contract. Additionally, PBGC did not document
                           communications with a potentially qualiﬁed contractor before deciding to award a
                           sole source contract to the Canadian ﬁrm.




                      10   PENSION BENEFIT GUARANTY CORPORATION
We also noted the Procurement Department did not have documented departmental
policies and procedures ensuring consistent and timely performance of its daily and
monthly procurement duties.

We recommended and management agreed to:

     • Establish and document procedures requiring retention of all documents
       supporting the advanced planning process in accordance with Federal
       Acquisition Regulations and PBGC requirements; and

     • Establish and document detailed policies and procedures for PBGC’s
       procurement activities, including duties performed by the Contracting Oﬃcer,
       Contract Specialists, and the Competition Advocate.


Audit of Monitoring Activities Related to Ariel Contracts (2005-19/CA-0008-2)

Using an IPA, we conducted another audit of the Ariel contracts to evaluate PBGC’s
contract oversight. We found that PBGC generally complied with applicable Federal
Acquisition Regulations and PBGC directives, policies, and procedures. In addition,
these contracts were subject to management oversight by PBGC’s Operations
Integration Board, a project steering group and the Information Technology                    PBGC needs
Investment Review Committee. Thus, critical decisions were made or reviewed by
                                                                                              policies and
PBGC management rather than an individual COTR, providing an added control.
                                                                                              procedures to
The report does, however, note some issues of noncompliance with contract or PBGC             ensure eﬀective
requirements and opportunites for improving the monitoring process, including:
                                                                                              procurement
     • The COTRs did not maintain evidence of performing required reviews of all              activities
       invoices submitted by the contractor; create all required status reports in the
       COTR Status Report System and, for those created, did not always create
       them in a timely manner; and document the acceptance and receipt of
       contract deliverables in writing.


     • The Contract Specialist did not obtain required yearly invoice summaries from
       the Contractor.


     • One of the contracts requires annual SAS 70 audits, as needed, beginning with
       the 12-month period ending June 30, 2004. This audit was not performed and
       no documentation was available to explain why this SAS 70 audit was not
       deemed necessary for the period.




                            SEMIANNUAL REPORT OF THE INSPECTOR GENERAL—SEPTEMBER 2005    11
     To address the above conditions, our recommendations included:


           • COTRs ensure that all required invoice reviews are performed and
             documented, and that acceptance and receipt of all contract deliverables are
             documented in writing;


           • The Procurment Department establish written operating procedures,
             including establishing due dates for contract monitoring duties;


           • The Procurement Department formalize procedures for Contract Specialist
             review of invoices, including determining compliance with contract terms,
             such as labor rates, other direct costs, and subcontracting.


     Cost-Incurred Contract Audits

     We initiated seven audits of PBGC contracts totaling nearly $80 million. The objectives
     of these audits were to:

           • Determine if costs charged are allowable, allocable, and reasonable in
             accordance with the contract terms and applicable government
             acquisition regulations;


           • Determine the contractor’s compliance with its timekeeping internal controls
             and procedures: and


           • Verify that contractor’s employees are performing in job classiﬁcations
             established by the contract and to determine the reliability of employee
             time records.


     During this reporting period one of the audits was completed and we concluded
     that costs billed by the contractor were fairly stated. The remaining six audits will be
     completed in the upcoming months and their reports issued during the next reporting
     period.




12   PENSION BENEFIT GUARANTY CORPORATION
5. Program Performance

Review of Adjustments to Participants’ Disability Beneﬁts and
Beneﬁts Subject to Earning Limitations (2005-PA-0016)


When PBGC terminates a pension plan, it pays beneﬁts to the plan participants
according to that plan’s provisions. Each plan speciﬁes restrictions on beneﬁt
payments. These may include terminating a disability beneﬁt if the participant is no           Some beneﬁts
longer disabled, and reducing a beneﬁt based on earned income or receipt of social             require
security. If PBGC does not adjust the beneﬁts according to the plan provisions, then it
pays beneﬁts to participants who are no longer eligible.                                       continuous

At the request of the Chief Operations Oﬃcer, we conducted a review of PBGC’s ability          veriﬁcation.
to identify, monitor, and process required plan adjustments to participants who (1)
receive disability retirement payments, or (2) are subject to earning limitations.

We have recently completed our review and met with management to discuss our
ﬁndings. We will issue the ﬁnal report in the 1st quarter of FY06.


Accounts Payable Review (2005-15/23189)

The OIG completed an evaluation of PBGC’s Accounts Payable (A/P) process and
issued our ﬁnal report. We determined that PBGC has an adequate system of controls
to reduce or mitigate signiﬁcant risks. However, we noted potential improvements
that would promote accountability and improve controls over disbursement.
Consequently, we suggested that PBGC consider improving controls in several areas
when designing and implementing the new A/P system:

      • Document the data dictionary used to identify the types and use of data for
        the A/P process.

      • Create a well documented audit trail for the A/P process.

      • Streamline the payment certiﬁcation process to make it less cumbersome.


Controls Related to the Purchase Card Program (2005-14/PA0007)


As a follow-up to a prior OIG report, we reviewed PBGC’s purchase card program. As
recognized throughout the government, the purchase card program is high-risk, not
due to its materiality in dollars, but in its potential for fraud or abuse, high-proﬁle
public interest, and heightened congressional scrutiny. For the twelve month period
reviewed, there were 53 cardholders with a combined authority to purchase about
$15 million of goods and services. Actual card expenditures for this period were about
$2.2 million.




                             SEMIANNUAL REPORT OF THE INSPECTOR GENERAL—SEPTEMBER 2005    13
     Using a risk-based approach to evaluate the controls, we examined PBGC’s
     management of the purchase card program and the employees’ use of the
     Card. We identified two broad areas for improvement:

          • Oversight of the program at all levels of participation to better monitor
            departments’ expenditures and maintain documentation; and

          • Training for individuals in the use and the approval of purchase card
            transactions.

     We recommended that PBGC reassess the policies and procedures governing
     card use and strengthen its training and oversight related to the program
     to reduce the risk of fraud or misuse. Management agreed with our
     recommendations and provided a timeline for implementing their corrective
     actions.




14   PENSION BENEFIT GUARANTY CORPORATION
Other Audit Activity
Peer Review of the Federal Reserve Board’s
Oﬃce of Inspector General

We conducted a quality control review of the audit operations of the Oﬃce of
Inspector General of the Board of Governors of the Federal Reserve System. External
peer reviews are conducted within the OIG community to evaluate the audit
organization’s system of internal quality control and to ensure that it complies with         Who “watches
generally accepted government auditing standards. The peer review encompassed                 the watchdog”?
the elements of staﬀ qualiﬁcations, independence, audit performance, and quality
assurance. The Federal Reserve OIG oﬃcials appreciated our recognition of their recent        The Integrity
eﬀorts to revise policies and procedures, and to implement new audit management               Committee of the
software which allows them to address prior peer review recommendations and
strengthen their compliance with generally accepted government auditing standards.            IG community
                                                                                              receives
Access to Information                                                                         complaints of OIG

Under the Inspector General Act, the Inspector General is to have unfettered access           wrong-doing.
to all agency records, information, or assistance when engaged in an investigation
or audit. Whenever access to requested records, information, or assistance is
unreasonably refused or not provided, the Inspector General must promptly report the
denial to the agency head.

During this six month reporting period, the Inspector General’s access to information
was not restricted.



Management Decisions
The Inspector General is required to report the following about management decisions
on audit reports that occurred during this six-month period:

  • There were no audit reports for which there was not a management decision.
  • There were no signiﬁcant revised management decisions.
  • There were no management decisions with which the Inspector General
  disagreed.




                            SEMIANNUAL REPORT OF THE INSPECTOR GENERAL—SEPTEMBER 2005    15
16   PENSION BENEFIT GUARANTY CORPORATION
Investigations
Overview
A major responsibility of the Inspector General is to receive and investigate complaints
from PBGC employees, the public, and other sources concerning violations of law,
rule, or regulation; mismanagement; gross waste of funds; abuse of authority; or
a substantial and speciﬁc danger to the public health and safety. Individuals may
disclose information or make complaints to the Inspector General through the OIG
Hotline (see announcement on back cover page). The Inspector General protects the                OIG HOTLINE
legal rights of whistle-blowers and complainants and takes great care to not disclose            When in doubt --
their identity without their consent.
                                                                                                 CALL!!

OIG Hotline


The OIG operates a separate toll-free Hotline telephone number and a conﬁdential
Hotline post oﬃce box. The OIG Hotline telephone is answered by an investigative staﬀ
assistant for a two-hour period, Monday through Friday. At all other times, a recorded
message provides information about the Hotline service and refers callers to our main
telephone number.


Activity This Period
Signiﬁcant Investigations
Ethical Misconduct                                                                               Signiﬁcant
                                                                                                 Investigations:
In a Report of Investigation, we found a PBGC manager had engaged in ethical
misconduct, including soliciting and receiving a loan from an employee who was                   • Ethical
under the manager’s direct supervision, and failing to list ﬁnancial matters that are             Misconduct
required on the annual Federal ﬁnancial disclosure forms. PBGC management is
currently considering the actions they will take.                                                • Purchase Card
                                                                                                  Rewards and
Rewards Programs for Government Credit Card Purchases                                             Rebates
                                                                                                 • Suspicious
Based on an audit referral and recent convictions in other federal agencies, we initiated
                                                                                                  Package
an investigation into whether PBGC purchase cardholders personally used rewards
and rebates oﬀered by vendors based on government purchases. We found that, of                   • Pension Fraud
the ﬁfty-three PBGC government purchase cardholders, more than half participated in
rewards programs oﬀered by vendors.




                             SEMIANNUAL REPORT OF THE INSPECTOR GENERAL—SEPTEMBER 2005      17
                           We found that none of the employees had received awards or personally beneﬁted
                           from purchases they made on behalf of the government. However, we suggested
                           several controls to the Corporation’s Internal Control Committee to prevent potential
                           fraud and abuse.


                           Suspicious Package at Customer Call Center


                           At the request of management, OIG investigators responded to an incident at a PBGC
                           oﬀsite facility where a PBGC employee discovered a suspicious white powder when
                           opening mail. The local ﬁre department responded to the scene and declared the area
                           safe, however, the staﬀ remained concerned about their safety. The investigators’
                           actions allayed the concerns. As a result of this incident, the OIG:

                                • consulted with management to reﬁne PBGC policies and procedures for
                                  suspicious mail handling by PBGC employees and contractors;

                                • participated in a meeting with the Postal Inspection Service to discuss
                                  handling suspicious mail and set up points of contact in case of future
                                  incidents; and

                                • issued an Advisory Alert to PBGC employees and contractors with information
                                  about identifying and handling suspicious mail.


                           Pension Fraud
       A man was
   sentenced to 6               • The Assistant IG for Investigation worked with a Florida state’s attorney to
 years in a Florida               indict and prosecute an individual who created false PBGC participant checks
                                  and deposited them into a credit union. The AIGI testiﬁed in a Florida state
prison for stealing               court, resulting in the individual being convicted of uttering a
    and forging a                 forged instrument and grand theft, and receiving a 6 year sentence.

     participant’s
                                • PBGC has a “missing participants” program in which they attempt to locate
            check.                thousands of participants in pension plans who are owed money by PBGC.
                                  Based on a fraud referral from two PBGC employees who noted suspicious
                                  activity, we investigated identity theft of a participant who had not received
                                  an $11,000 pension payment. and prevented another $21,000 payment from
                                  being issued to an identity thief. As a result, PBGC is processing the $11,000
                                  payment to the correct participant and is still attempting to locate the second.
                                  During our investigation, we suggested that PBGC implement several control
                                  to prevent identity theft. The investigation is on-going to identify the
                                  individual who fraudulently obtained the $11,000 and seek prosecution.




                      18   PENSION BENEFIT GUARANTY CORPORATION
     • We also closed 6 cases and/or inquiries that raised issues of fraud relating to
       pension plans and beneﬁts, including:

           •   An inquiry in response to several participants’ complaints that a ﬁrm
               from Ohio fraudulently stated that the PBGC was terminating their
               pension plan and that they needed to call the ﬁrm to discuss options.
               We contacted the Ohio ﬁrm, reviewed their mail and telephone
               contact information and found no reference to the PBGC at all. We
               then tracked the source of the alleged fraud to a local union’s web site
               that had posted an e-mail from one of their members. When we
               contacted the local union with the correct information, they agreed to
               notify their membership through the local union meeting and
               by posting a retraction to their website. Our eﬀorts stabilized
               a sensitive situation by correcting misinformation and relieving
               the anxiety of some PBGC participants.

           •   An inquiry that substantiated an elderly participant’s claim that she did
               not receive a pension check of $1,574.00, and the check was re-issued.


Fraud and Advisory Alerts

As part of our strategic plan, we continuously seek to give our stakeholders a better
understanding of OIG eﬀorts to detect and prevent fraud. We periodically issue e-mail           Alerts provide
“Alerts” to all PBGC employees and contractors that provide practical advice to protect         employees and
themselves from fraud and other harm. This period we issued Alerts concerning:
                                                                                                contractors fraud
     • Cell phone phishing, which is a method to steal conﬁdential information such             and consumer
       as passwords, credit card numbers, and other ﬁnancial information from your
                                                                                                awareness tips.
       cell phone through various scams. For example a bogus text message may ask
       you to call an 800 number. When you call the number, the scammer extracts
       your phone number, which is then used to make unauthorized calls
       (perhaps for nuisance purposes) or sold to others for criminal use.


     • How to identify suspicious mail at home and work, and steps to protect
       themselves when handling such mail.


Follow-up on Agency’s Administrative Action

PBGC’s E-systems Uses for Oﬀensive Material


In a prior reporting period, we issued Reports of Investigation involving 30 federal
employees and contractors who were using U.S. Government computers and the PBGC
e-mail system to view, share, and store pornographic and other inappropriate material.
Based on the investigation, PBGC contractors terminated 8 employees and counseled
3 others. PBGC suspended one federal employee and isssued letters of reprimand/
counseling to 15 others.

                            SEMIANNUAL REPORT OF THE INSPECTOR GENERAL—SEPTEMBER 2005      19
SUMMARY OF INVESTIGATIVE ACTIVITIES
For The Six-month Period Ending September 30, 2005

Investigations
    Pending beginning of period                             35
    Opened                                                   9
    Closed                                                  31
    Pending end of period                                   13

Inquiries
    Pending beginning of period                             14
    Opened                                                  23
    Closed                                                  28
    Pending end of period                                    9

Financial Recoveries*
    Theft of Funds Recovered                                    0
    Court Ordered Fines, Penalties, and Restitution             0
    U.S. Government Property Recovered                          0

Criminal Actions*
    Arrests                                                     0
    Indictments                                                 1
    Convictions                                                 1

Administrative Actions*
   Terminations                                              0
    Suspensions                                              1
   Oral or Written Reprimand                                15


Referrals
    For Prosecution:
        Department of Justice                                   1
           Declined                                             1
        Various States’ Attorney Oﬃces                          0
           Declined                                             0
    For Other Action:
          PBGC Management for Corrective Action                 1

    * Results reported for Financial Recoveries, Criminal and
 Administrative Actions include both open and closed cases.




20        PENSION BENEFIT GUARANTY CORPORATION
Other Oﬃce of
Inspector General Activities
Review of Proposed Statutory and Regulatory Changes
Statutes
A major responsibility of the OIG under the IG Act is to independently review changes
to laws and regulations that are proposed by PBGC. PBGC continued to work with the
Departments of Labor, Treasury and Commerce to support the Administration’s major
pension law reform proposals to provide simplicity, ﬂexibility, accuracy and stability in
the deﬁned beneﬁt pension insurance program that PBGC administers.
Regulations

PBGC has engaged in a major eﬀort to streamline its regulations and to improve
administration of the pension insurance program, with a focus on making pension-
related information more accurate, complete and transparent. The Corporation
issued proposed and ﬁnal rules in a number of areas, including a mandatory e-ﬁling
rule, adopting more current mortality assumptions for valuing pension beneﬁts,
and revised employer liability calculations when there is a substantial cessation of
operations. Upon review, we believe the regulatory changes are reasonable.


Internal PBGC Activities
                                                                                                 We worked with
OIG staﬀ members have engaged in several activities within PBGC to promote
fraud prevention, improve relationships between the OIG and PBGC, and provide                    management
consultations to managers to improve agency operations. Among these activities are
                                                                                                 to strengthen
the following:
                                                                                                 PBGC’s ethical
      • The OIG prepared brieﬁng books and the Inspector General met with the                    environment
        new executives – Chief Financial Oﬃcer, General Counsel, and Chief
        Administrative Oﬃcer - in their ﬁrst days at PBGC. Both the audit and
        investigative units have met with these executives to brief them on their
        work, and inquire about concerns and ways we might work together to
        strengthen internal controls.


      • We continued to work with executive management to strengthen PBGC’s
        ethical environment, including discussions with the General Counsel
        about speciﬁc issues for training, reviewing proposed ethics policies and
        messages to employees, and talking about ethics to senior leaders.


      • Two OIG auditors culminated their participation in a special leadership
        mentoring program, “Building Your Leadership Toolbox.” This nine-month
        program gave a small group of employees the opportunity to work
        directly with senior PBGC managers, discussing best practices

                             SEMIANNUAL REPORT OF THE INSPECTOR GENERAL—SEPTEMBER 2005      21
                         and completing developmental assignments. Both the Deputy
                         IG and the Assistant IG for Audit were senior mentors, leading sessions in
                         Oral Communications and Leadership. The mentorees              were challenged to
                         use the skills they learned in a ﬁnal group project: develop a comprehensive
                         communication package for PBGC’s facilities department to
                         prepare employees for upcoming major building renovations. The group
                         designed a program that uses technology to deliver information to
                         employees, which includes checklists, timelines and suggested
                         communications to employees to ease the stress of dealing with renovations
                         and moving. They presented their project to the facilities department, the
                         senior mentors and their supervisors and delivered a comprehensive project
                         notebook to the department.


                             • The OIG continues to be very involved in PBGC’s other structured
                               mentoring programs:
                                    •   The Inspector General and Deputy IG completed a nine-month
                                        program as one-on-one mentors to two PBGC employees who
                                        are not in the OIG,
                                    •   The Assistant IG for Audits will join the Inspector General as a mentor
 OIG has been
                                        in another nine-month one-on-one mentoring program, and
      active in                     •   The Inspector General is again serving as an executive mentor in the
    mentoring                           “Leaders Growing Leaders” program.

 programs, as
                             • To assist PBGC in issuing beneﬁts to those displaced by Hurricane Katrina,
senior mentors                 we coordinated with the United States Postal Service OIG investigative team
                               that was on-site in Louisiana to get answers to PBGC’s speciﬁc questions.
and mentorees
                               After hurricane Katrina, PBGC quickly identiﬁed 3,500 participants in the
                               region who had no mail service, and then narrowed it down to about 1,400
                               who receive monthly paper checks. Demonstrating their commitment to
                               ensuring these hard-hit people received their payments, PBGC pledged
                               next-day direct deposit transfers for beneﬁciaries in Louisiana, Mississippi
                               and Alabama who did not receive their September checks. PBGC was also
                               willing to accommodate special requests for those who preferred to receive a
                               check, rather than direct deposit.

                             • OIG staﬀ participated as observers and evaluators in the April 2005 all-agency
                               COOP test and the August 2005 information technology systems COOP test.


                       External Activities
                       Various staﬀ members participated in external professional activities, including the
                       following:

                             •   The Inspector General represents the Executive Council on Integrity and
                                 Eﬃciency on IG Community’s Human Recourses Committee. He also chairs


                  22   PENSION BENEFIT GUARANTY CORPORATION
 the Committee’s “Core Competency” Working Group, which completed two
 major projects during the period that will help the Inspector General
 community improve professional staﬀ development:


     •   The ﬁrst project resulted in a training compendium of competencies
         that are common to all occupations in an Oﬃce of Inspector General
         regardless of level---leadership, management and team skills.                 PBGC’s IG played
         Looking at best practices in the private and public sectors, the
         Working Group identiﬁed training curricula for auditors, inspectors,          a key role on
         criminal investigators, attorneys, and other professionals. The
                                                                                       two projects to
         compendium will allow the IG community to readily identify
         vendors and courses that provide core competency training at                  improve staﬀ
         the entry, intermediate and advanced levels.
                                                                                       development in

     •   The second project resulted in a report that assessed the ability             the IG community
         of IG schools (the IG Management Institute, IG Criminal Investigator
         Academy, and the IG Auditor Training Institute) to support the
         training needs of the IG Community. The Working Group
         concluded that the governance and business models for the
         schools could be improved to better support the training needs
         of the entire community. The report’s recommendations called for
         consolidating the schools, establishing an overarching governance
         mechanism, and developing a more integrated approach to training.
         Based on the report, the IG Community is considering a proposal to
         consolidate the schools under a single Board of Directors.


• Along with 34 other OIGs, we are participating in a pilot IG Community
  E-Learning project using Skillsoft, Inc. to develop, maintain, and operate
  online training courses to measure the competency and skill level of the
                                                                                       Did you know....
  IG staﬀ in the audit, investigation, and administration disciplines. At              the OIG
  the completion of each course, the participant receives continuing education
  credits and a certiﬁcate of completion. In addition, Books 24x7 provides             community is
  over 7,000 reference books that can be searched by keywords. If successful,          piloting online
  this would assure that OIG staﬀ member have consistent training and should
  reduce the dependence on outside training.                                           learning for core
                                                                                       curriculum?
• An OIG Auditor continues to work on a government-wide working group to
  improve the overall eﬃciency and eﬀectiveness of FISMA reporting
  for all agencies, both large and small. The working group is comprised of
  members from the OIG community, the Government Accountability Oﬃce and
  the Oﬃce of Management and Budget.

• The IG serves on the International Conference Committee of the Institute of
  Internal Auditors. The Committee focuses on identifying trends in internal
  auditing and organizing and hosting international professional development
  conferences.



                      SEMIANNUAL REPORT OF THE INSPECTOR GENERAL—SEPTEMBER 2005   23
                               • The IT Audit Manager serves as the Program Committee Chair for a chapter
                                 of the Information Systems Audit and Control Association (ISACA). This
                                 committee is responsible for setting the program for the membership’s
                                 monthly meetings including topics and speakers to further the knowledge and
                                 skill level of its membership. All programs provide members an
                                 opportunity to receive continuing professional education credits to meet their
                                 certiﬁcation requirements in the ﬁelds of audit, technology, security, controls,
                                 and management for both the private and public sectors.

                               • To better understand PBGC issues and congressional concerns, each OIG staﬀ
                                 member attended a congressional hearing related to PBGC.

                         Internal OIG Initiatives

                         Certiﬁcation and Accreditation of OIG Local Area Network (LAN)

                         In June 2004, the OIG began to evaluate its compliance with the National Institute of
                         Standards and Technology (NIST) Special Publication 800-37, Guide for the Security
                         Certiﬁcation and Accreditation of Federal Information Systems. We determined
                         that the network system used for all of the OIG communication and access to PBGC
                         applications was a signiﬁcant system warranting compliance.

                         Of the 43 items requiring corrective action, all but two have been corrected and
 OIG has identiﬁed       full accreditation will be granted (currently acceptable for 3 years) by the end of
      and corrected      October 2005.

vulnerabilities in its
                         OIG COOP Support to Alternate Site
             systems
                         The OIG continues to implement a move of its backup equipment, including all servers
                         to support access to applications and e-mail to a remote Continuity of Operations
                         site. With this move, the OIG will join PBGC in relocating its backup support to a hot-
                         site outside of the immediate Washington, DC area. This move will enable the OIG
                         to provide continued support to its staﬀ in the event its headquarters oﬃces are not
                         available. Once all equipment is in place and functional, the OIG will join PBGC in
                         testing the COOP at least twice a year.


                         OIG Strategic Plan

                         We completed a Strategic Plan that is a roadmap for where we are today, where we
                         want to be tomorrow, and how we will get there. We believe the strategic planning is
                         a critical aspect of managing for results and continously improving performance. The
                         entire staﬀ participated in developing the goals and performance measures, and we
                         want to hold ourselve accountable for results.


                    24   PENSION BENEFIT GUARANTY CORPORATION
Appendix
CROSS-REFERENCE TO REPORTING REQUIREMENTS
OF THE INSPECTOR GENERAL ACT

The table below cross-references the reporting requirements prescribed by the
Inspector General Act of 1978, as amended, to the speciﬁc pages in the report where
they are addressed.

Inspector General
Act Reference          Reporting Requirements                             Page
Section 4(a)(2)        Review of legislation and regulations.             21
Section 5(a)(1)        Signiﬁcant problems, abuses, and deﬁciencies.      5-14,17-19
Section 5(a)(2)        Recommendations with respect to signiﬁcant         5-14,17-19
                       problems, abuses, and deﬁciencies.
Section 5(a)(3)        Prior signiﬁcant recommendations on which          27
                       corrective action has not been completed.
Section 5(a)(4)        Matters referred to prosecutorial authorities.     17-19
Section 5(a)(5)        Summary of instances in which information          15
                       was refused.
Section 5(a)(6)        List of audit reports by subject matter, showing 26
                       dollar value of questioned costs and
                       recommendations that funds be put to better use.
Section 5(a)(7)        Summary of each particularly signiﬁcant report.    5-14,17-19
Section 5(a)(8)        Statistical table showing number of reports and    24
                       dollar value of questioned costs.
Section 5(a)(9)        Statistical table showing number of reports and    24
                       dollar value of recommendations that funds be
                       put to better use.
Section 5(a)(10)       Summary of each audit issued before this           None
                       reporting period for which no management
                       decision was made by end of reporting period.
Section 5(a)(11)       Signiﬁcant revised management decisions.           None
Section 5(a)(12)       Signiﬁcant management decisions with which         15
                       the Inspector General disagrees.




                           SEMIANNUAL REPORT OF THE INSPECTOR GENERAL—SEPTEMBER 2005   25
REPORTS ISSUED WITH QUESTIONED COSTS*
AND FUNDS PUT TO BETTER USE
For the Six-Month Period Ending September 30, 2005



                                                      Number          Questioned         Unsupported       Funds put to
                                                     of Reports         Costs              Costs**          Better Use

  A. For which no management decision had               7            $16,688,747           $1,377,154        -0-
  been made by the commencement of the
  reporting period.***
  B. Which were issued during the reporting             1            $16,965               -0-               -0-
  period

  Subtotal (Add A. & B.)                                8            $1,466,748            $1,377,154        -0-


  C. For which a management decision was                1            $15,353,425           -0-               -0-
  made during the reporting period.

  (i) dollar value of disallowed costs                               $2,417,073            -0-               -0-


  (ii) dollar value of costs not disallowed                          $12,936,352           -0-               -0-


  D. For which no management decision had               7            $1,352,287            $1,377,154        -0-
  been made by the end of the reporting
  period.
  E. For which no management decision was               6            $1,335,322            $1,377,154        -0-
  made within six months of issuance.



*This statistical information is required by Section 5(a)(6)(8) and (9) of the Inspector General Act of 1978, as
amended.
**For some reports issued by the Contracts and Control Review Department(CCRD), unsupported costs are a subset
of questioned costs.
*** Includes multiple CCRD reports of a contractor with $15,238,964 of questioned costs issued in prior years for
which the Contracting Oﬃcer negotiated a settlement of $2,381,208 in this period.




                                SEMIANNUAL REPORT OF THE INSPECTOR GENERAL—MARCH 2005             26
SIGNIFICANT PROBLEMS, DEFICIENCIES AND RECOMMENDATIONS
Report Number, Report Title and       Number of             Signiﬁcant Problems Summary of Signiﬁcant
Date Issued                           Signiﬁcant            and Deﬁciencies     Recommendations
                                      Recommendations
98-3/23126-2                                                Reportable                PBGC needs to complete
Audit of the Pension Beneﬁt                                 Condition:                the integration of its ﬁnancial
Guaranty Corporation’s Fiscal Years                         Integrating               management systems.
1997 - 1996 Financial Statements              1**           Financial
03/23/1998                                                  Management
                                                            Systems
2003-3/23168-2                                              Reportable                PBGC needs to complete its
Audit of the Pension Beneﬁt                                 Condition:                efforts to fully implement and
Guaranty Corporation’s Fiscal Years                         Implementing              enforce an effective information
2001 - 2000 Financial Statements              2**           & Enforcing               security program.
01/30/2003                                                  Information
                                                            Security Program
2005-2/23182-2                                              Reportable                PBGC needs to improve
Audit of the Pension Beneﬁt                                 Condition:                controls related to single-
Guaranty Corporation’s Fiscal Years            5            Improving Single-         employer premiums.
2004 - 2003 Financial Statements                            Employer Premium
11/15/2004                                                  Accounting System
2005-2/23182-2                                              Reportable                PBGC needs to continue to
Audit of the Pension Beneﬁt                                 Condition:                improve its controls over the
Guaranty Corporation’s Fiscal Years                         Identifying               identiﬁcation and measurement
2004 - 2003 Financial Statements               7            & Classifying             of the single-employer
11/15/2004                                                  Contingent                contingent liabilities.
                                                            Liabilities for Single-
                                                            Employer Program
2004-2/23176-2                                              Reportable                PBGC needs to strengthen
Audit of the Pension Beneﬁt                                 Condition:                controls over the identiﬁcation
Guaranty Corporation’s Fiscal Years                         Identifying &             and classiﬁcation of
2003 - 2002 Financial Statements                            Classifying Probable      multiemployer plans probable
1/15/2004                                                   Multi-Employer            of receiving ﬁnancial
2005-2/23182-2                                6**           Plans                     assistance.
Audit of the Pension Beneﬁt
Guaranty Corporation’s Fiscal Years
2004 - 2003 Financial Statements
11/15/2004


* This chart complies with Section 5(a)(1)(2)(3) and (6) of the Inspector General Act of 1978, as Amended.
** Includes Signiﬁcant Recommendations from previous semi-annual reports on which corrective action has not
been completed.




                    27        SEMIANNUAL REPORT OF THE INSPECTOR GENERAL—MARCH 2005
     Glossary
     Questioned Cost
     A cost the OIG has questioned because of an alleged violation of law, regulations,
     contract, grant, cooperative agreement, or other agreement or document governing
     the expenditure of funds; because such cost is not supported by adequate
     documentation; or because the expenditure of funds for the intended purpose is
     unnecessary or unreasonable.


     Unsupported Cost
     A cost the OIG has questioned because of a lack of adequate documentation at the
     time of the audit.


     Disallowed Cost
     A questioned cost that management, in a management decision, has sustained or
     agreed should not be charged to the government.


     Funds to Be Put to Better Use
     Funds the OIG has identiﬁed in an audit recommendation that could be used more
     eﬃciently by reducing outlays, deobligating program or operational funds, avoiding
     unnecessary expenditures, or taking other eﬃciency measures.


     Management Decision
     Management’s evaluation of audit ﬁndings and recommendations and issuance of a
     ﬁnal decision concerning management’s response to such ﬁndings and recommendations.


     Final Action
     The completion of all management actions described in a management decision with
     respect to audit ﬁndings and recommendations. If management concluded that no
     actions were necessary, ﬁnal action occurs when a management decision is issued.


     Misconduct
     Action of employees or contractors that violates laws, rules, or regulations and for
     which corrective action is warranted.




28   PENSION BENEFIT GUARANTY CORPORATION
30   PENSION BENEFIT GUARANTY CORPORATION
SEMIANNUAL REPORT OF THE INSPECTOR GENERAL—SEPTEMBER 2005   31
If you want to report or discuss conﬁdentially any instance of
misconduct, fraud, waste, abuse, or mismanagement, please
          contact the Oﬃce of Inspector General.

                         Telephone:

              The Inspector General’s HOTLINE
                      1-800-303-9737

        For deaf or hard of hearing people, dial FRS
 (800) 877-8339 and give the Hotline number to the agent.

                          Or write:

           Pension Beneﬁt Guaranty Corporation
                Oﬃce of Inspector General
                      PO Box 34177
               Washington, DC 20043-4177
